<html>
<title> - TSA OVERSIGHT PART 2: AIRPORT PERIMETER SECURITY</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
            TSA OVERSIGHT PART 2: AIRPORT PERIMETER SECURITY

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY,
                HOMELAND DEFENSE AND FOREIGN OPERATIONS

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 13, 2011

                               __________

                           Serial No. 112-75

                               __________

Printed for the use of the Committee on Oversight and Government Reform


         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform



                  U.S. GOVERNMENT PRINTING OFFICE
71-820                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2641564966455355524e434a560845494b08">[email&#160;protected]</a>  

              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 DARRELL E. ISSA, California, Chairman
DAN BURTON, Indiana                  ELIJAH E. CUMMINGS, Maryland, 
JOHN L. MICA, Florida                    Ranking Minority Member
TODD RUSSELL PLATTS, Pennsylvania    EDOLPHUS TOWNS, New York
MICHAEL R. TURNER, Ohio              CAROLYN B. MALONEY, New York
PATRICK T. McHENRY, North Carolina   ELEANOR HOLMES NORTON, District of 
JIM JORDAN, Ohio                         Columbia
JASON CHAFFETZ, Utah                 DENNIS J. KUCINICH, Ohio
CONNIE MACK, Florida                 JOHN F. TIERNEY, Massachusetts
TIM WALBERG, Michigan                WM. LACY CLAY, Missouri
JAMES LANKFORD, Oklahoma             STEPHEN F. LYNCH, Massachusetts
JUSTIN AMASH, Michigan               JIM COOPER, Tennessee
ANN MARIE BUERKLE, New York          GERALD E. CONNOLLY, Virginia
PAUL A. GOSAR, Arizona               MIKE QUIGLEY, Illinois
RAUL R. LABRADOR, Idaho              DANNY K. DAVIS, Illinois
PATRICK MEEHAN, Pennsylvania         BRUCE L. BRALEY, Iowa
SCOTT DesJARLAIS, Tennessee          PETER WELCH, Vermont
JOE WALSH, Illinois                  JOHN A. YARMUTH, Kentucky
TREY GOWDY, South Carolina           CHRISTOPHER S. MURPHY, Connecticut
DENNIS A. ROSS, Florida              JACKIE SPEIER, California
FRANK C. GUINTA, New Hampshire
BLAKE FARENTHOLD, Texas
MIKE KELLY, Pennsylvania

                   Lawrence J. Brady, Staff Director
                John D. Cuaderes, Deputy Staff Director
                     Robert Borden, General Counsel
                       Linda A. Good, Chief Clerk
                 David Rapallo, Minority Staff Director

    Subcommittee on National Security, Homeland Defense and Foreign 
                               Operations

                     JASON CHAFFETZ, Utah, Chairman
RAUL R. LABRADOR, Idaho, Vice        JOHN F. TIERNEY, Massachusetts, 
    Chairman                             Ranking Minority Member
DAN BURTON, Indiana                  BRUCE L. BRALEY, Iowa
JOHN L. MICA, Florida                PETER WELCH, Vermont
TODD RUSSELL PLATTS, Pennsylvania    JOHN A. YARMUTH, Kentucky
MICHAEL R. TURNER, Ohio              STEPHEN F. LYNCH, Massachusetts
PAUL A. GOSAR, Arizona               MIKE QUIGLEY, Illinois
BLAKE FARENTHOLD, Texas


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 13, 2011....................................     1
Statement of:
    Sammon, John, Assistant Administrator, U.S. Transportation 
      Security Administration; Stephen M. Lord, Director, 
      Homeland Security and Justice Issues, U.S. Government 
      Accountability Office; TJ ``Jerry'' Orr, airport director 
      and operator, Charlotte International Airport; Rafi Ron, 
      president, New Age Security Issues, former director of 
      security Tel Aviv-Ben Gurion International Airport; and 
      William Parker, inspector, K-9 Unit, Amtrak Police 
      Department.................................................     9
        Lord, Stephen M..........................................    13
        Orr, TJ ``Jerry''........................................    33
        Parker, William..........................................    46
        Ron, Rafi................................................    41
        Sammon, John.............................................     9
Letters, statements, etc., submitted for the record by:
    Lord, Stephen M., Director, Homeland Security and Justice 
      Issues, U.S. Government Accountability Office, prepared 
      statement of...............................................    15
    Orr, TJ ``Jerry'', airport director and operator, Charlotte 
      International Airport, prepared statement of...............    35
    Parker, William, inspector, K-9 Unit, Amtrak Police 
      Department, prepared statement of..........................    48
    Ron, Rafi, president, New Age Security Issues, former 
      director of security Tel Aviv-Ben Gurion International 
      Airport, prepared statement of.............................    42
    Sammon, John, Assistant Administrator, U.S. Transportation 
      Security Administration, prepared statement of.............    11
    Tierney, Hon. John F., a Representative in Congress from the 
      State of Massachusetts, prepared statement of..............     5


            TSA OVERSIGHT PART 2: AIRPORT PERIMETER SECURITY

                              ----------                              


                        WEDNESDAY, JULY 13, 2011

                  House of Representatives,
Subcommittee on National Security, Homeland Defense 
                            and Foreign Operations,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:30 a.m., in 
room 2154, Rayburn House Office Building, Hon. Jason Chaffetz 
(chairman of the subcommittee) presiding.
    Present: Representatives Chaffetz, Mica, Platts, Gosar, 
Farenthold, Tierney, and Lynch.
    Staff present: Thomas A. Alexander, senior counsel; Kate 
Dunbar, staff assistant; Linda Good, chief clerk; Christopher 
Hixon, deputy chief counsel, oversight; Mitchell S. Kominsky, 
counsel; Justin LoFranco, deputy director of digital strategy; 
Laura L. Rush, deputy chief clerk; Sang Yi, professional staff 
member; Jaron Bourke, minority director of administration; 
Kevin Corbin, minority staff assistant; and Carlos Uriarte, 
minority counsel.
    Mr. Chaffetz. Good morning. The committee will come to 
order. We appreciate you all being here for this oversight 
hearing, part number 2, regarding the TSA airport perimeter 
screening. I'd like to welcome Ranking Member Tierney and 
members of the subcommittee and members of the audience who are 
here and participating with us, and those of you that are 
watching on television.
    Today's proceedings are the second in a series of hearings 
designed to evaluate the status of U.S. airport security and 
the policies employed by the Department of Homeland Security. 
There are a number of concerns that have been highlighted to be 
drawn out here today. First and foremost, we have learned that 
there have been 25,000 security breaches at U.S. airports since 
November 2001. And I do appreciate the TSA in tracking and 
providing that data, but obviously those are the ones that we 
know about, and the deep concern is what about the ones that we 
don't know about, and the creativity and things that can happen 
in the future.
    We also are deeply concerned about the TSA failing to 
conduct threat vulnerability assessments in order to identify 
gaps in perimeter screening. In 2009 the GAO had concluded 
there were 87 percent of these airports that had not had these 
threat assessments done, and that number really has not 
changed.
    TSA also lacks a national strategy to secure commercial 
airports and access control; this, again, coming from a GAO 
report that says that the Nation's 457 commercial airports have 
not, ``been guided by a unifying national strategy.''
    Also concerned about more than 900,000 security badges at 
these 457 airports, and the dangers that that can lead to and 
the challenges that that presents.
    We're also concerned about what's happening at some of our 
Nation's airports; for instance, at JFK the investigative 
reports show that at least ``a quarter mile of the perimeter 
fence is down, leaving a gaping hole in security along a main 
JFK runway.'' This project is 4 years behind schedule.
    Also concerned about what happened at Dallas Love Field. 
The fence has been breached or damaged almost 20 times in less 
than 5 years. In fact, air traffic control tapes show that 
pilots on the ground were unsure of what to do when a pickup 
truck crashed through a fence and drove onto the tarmac on 
August 19, 2010. One of the pilots inquired, ``Tower, what's 
the protocol for something like this? If he's coming at us, can 
we move?'' Airport control tower responded, ``Just hold 
position.''
    We are also concerned about what's happening at LAX. They 
have 8 miles of fence there, built in stages over the past 
decade, and yet no one consistent standard has happened. We 
have spent nearly--we will have spent nearly $500 million on 
AIT machines--I call them the whole body imaging machine--by 
the time we get to the year 2013. And yet these machines, there 
are parts and gaps in that security that don't work.
    I happen to believe that there's a better, smarter way to 
do this that is more secure, less invasive, and we're going to 
hear some testimony today talking about the canine units and 
what they are able to do. And I look forward to hearing that 
testimony.
    We're also concerned that these AIT machines, or whole body 
imaging machines, would not have found some of the weapons that 
were attempted to be used in the December 2009 incident. And 
the list goes on.
    TSA has spent millions and millions of dollars in 
technology that has not worked. You remember the 207 puffer 
machines. After spending $30 million and having those deployed, 
those were put back on the shelf.
    The challenge before us is great. It's immense. It's real. 
And we have to deal with that threat to our Nation. It's not 
going to go away. There is no end to the creativity of 
terrorists. And while I have heard the press recount say that 
well, let's remember the 25,000 security breaches are 1 
percent, or even less than, 1 percent, unfortunately, we have 
to be right all the time. Terrorists only have to get lucky 
once.
    A lot of what we have been participating here, in my 
personal opinion, has been security theater, and has not truly 
done the job to secure the airports to the degree that we need 
to. And I think one of the personal challenges that we have as 
a Nation is how do we become more secure and yet less invasive; 
that we don't give up every personal liberty in the name of 
security. And we have to find that proper balance. It's a 
difficult one, knowing that the threat is real.
    So I look forward to this hearing today. We are going to 
also--so rather than wax on, I'd love to hear from the panel. 
But at this time I'd like to recognize the ranking member of 
this subcommittee, the gentleman from Massachusetts, Mr. 
Tierney, for his opening statement.
    Mr. Tierney. Thank you, Mr. Chairman. And thank our 
witnesses for being here this morning as well.
    Look, we understand that we are going to address some 
important issues here today. And one of them, for instance, is 
the Screening Passenger Observation Techniques [SPOT] program. 
Our Government Accountability Office has criticized that SPOT 
program, saying that it lacks appropriate scientific 
validation.
    The Department of Homeland Security has released a study 
that it says showed SPOT is more effective than random 
screening, but it does acknowledge that it didn't address 
whether behavioral analysis is actually an effective way to 
detect potential terrorists. Now, they've spent $750 million on 
it already; they're asking for another $250 million. I think 
it's pretty critical that we, with that significant investment 
out there, that we take a good look and scrutinize whether or 
not this program actually is effective at identifying potential 
threats to security.
    We're also going to discuss the screening of checked 
baggage using the explosive detection technology. Congress 
mandated 100 percent screening of checked bags by the 
Transportation Security Agency, but it's been slow to implement 
those standards at airports across the country,
    Again, the Government Accountability Office said that 
despite the regulations being in effect in 2005, the expositive 
detection technology requirements weren't put in place till 
2009.
    Turning to the issue of perimeter security, there have been 
some high-profile breaches that we are all aware of. 
Specifically, we will hear today about the tragic incident that 
occurred just outside of Boston's Logan Airport, where a young 
man fell from a plane as it approached the airport for landing. 
According to news reports, he likely gained access to the plane 
after breaching airport perimeter security in Charlotte. This 
is not a unique incident, unfortunately.
    We have also heard about serial security breaches by Mr. 
Ronald Wong, who was somehow able to make it on to a plane 
leaving JFK Airport in New York to San Francisco with a stolen 
boarding pass.
    The Government Accountability Office has also raised 
concerns about perimeter security at our Nation's airports. In 
2009 they found the TSA had failed to implement a national 
strategy to address perimeter security, and that only a small 
percentage of airports had completed joint vulnerability 
assessments. This, again, raised serious questions that have to 
be addressed.
    So as we evaluate these incidents and the challenges, it's 
probably important for us to take the time to understand what 
security functions the Transportation Security Administration 
is not directly responsible for. And one of those is the 
perimeter area. They are not principally responsible for 
perimeter security at airports. That perimeter security is 
primarily the responsibility of airport operators, while TSA's 
role is to ensure that the operator is adhering to an 
appropriate security plan that meets Federal standards.
    So, as I said at the last hearing on TSA, the Agency has a 
difficult and unenviable task, but it's our responsibility, our 
role, to provide constructive criticism with which you at TSA 
can strike the balance between security, convenience and cost, 
hopefully, weighing heavily on the security aspect. I hope our 
hearing today can help TSA do just that. And I thank the 
chairman again for bringing us together.
    Mr. Chaffetz. Thank you.
    [The prepared statement of Hon. John F. Tierney follows:]

    [GRAPHIC] [TIFF OMITTED] T1820.001
    
    [GRAPHIC] [TIFF OMITTED] T1820.002
    
    Mr. Chaffetz. We will now recognize the chairman of the 
Transportation Committee, and also a member of this 
subcommittee, the gentleman from Florida, Mr. Mica, for his 
opening statement.
    Mr. Mica. Well, thank you, Mr. Chairman. And thank you, Mr. 
Tierney, for your leadership and also pursuing very important 
issues relating to transportation security and holding a very 
important Agency accountable.
    Having been involved with the TSA and actually picked the 
name for the Agency and helped craft its enabling legislation 
some 10 years ago, I've had a chance to monitor its activities 
closely. And unfortunately, I become more and more concerned 
with the billions of dollars that are being expended. Some of 
it just astounds me. We've created an Agency that's actually 
run pell mell away from security and turned into a huge, 
unthinking, nonrisk-based bureaucracy. Everywhere I turn, I'm 
appalled at what's taking place.
    Recently I had the opportunity to go to our State Capitol, 
Tallahassee, and I left the airport to pick up a rental car. 
And the airport is located on about a 16-foot embankment that 
actually is an embankment across the entire length of the 
airport. Here's the front of the airport. Here's the 
embankment, 16 feet high. And just to show you--we're talking 
about airport security and perimeters--how idiotic we could be 
in implementation of any requirement like this. But this is the 
parking space for rental cars. This is a 16-foot embankment. 
You can see up here where cars go through the entrance of the 
airport.
    Now, there's a new airport administrator. He wasn't 
familiar with all of the details, but we're going to do a 
thorough investigation of this. This is just one instance, 
again, of a nonthinking Agency.
    I don't know of any explosive device that could possibly 
penetrate 16 feet here, except maybe a nuclear weapon. I don't 
know how much it cost to put these barriers here, but again, 
forcing a small airport--or if TSA paid for an idiotic expense, 
not to mention the cost to the taxpayer or the airport. But 
then, of course, they would never consider the economic loss to 
the car rental firm or to the revenue of the airport.
    But every time, everywhere I turn, I see a disregard for 
the taxpayer. This is just one instance and one small 
community. Again, just an unthinking Agency. Their budget is, 
what, in the $8 billion range?
    Then I open the paper a week or two ago when I returned to 
Washington, and I look at this ad. Now, of course, the Humane 
Society is looking for a vice president of Federal Affairs and 
they have a little--I'd say it's about a sixth of the page. But 
we have a four-color, half-page ad for a Deputy Assistant 
Administrator for Legislative Affairs in this and other Capitol 
Hill publications. Half page. Only total disregard for 
taxpayers' resources could you expend money on--whether it's a 
venture like this at my State Capitol airport, or in a Capitol 
Hill publication. And I'm going to request, too, an accounting 
for expenditure of this money.
    And let me just tell TSA, too, that if you refuse to 
cooperate with my committee, the Transportation and 
Infrastructure Committee, I have had and will continue to have 
the cooperation of both this subcommittee on which I serve, and 
the full committee. Mr. Issa and the chairman here have agreed 
to cooperate to get this information. And we will get the data, 
whether it's this or other activities such as you've refused to 
provide information to us on regarding your expenditure of your 
national deployment force where you can't hire people, or 
people leave their jobs and you have to fly them in, put them 
up at hotels, pay their expenses, and pay them a per diem. 
Whether it's that issue or more than a dozen pending items, we 
will get the information. We will investigate. We will protect 
the taxpayers who are paying the bulk of the expenses for this 
fiasco.
    So thank you for holding this hearing. We'll get to some 
issues and questions in a few minutes. And I yield back.
    Mr. Chaffetz. Thank you. We'll now recognize the gentleman 
from Massachusetts, Mr. Lynch, if he'd like an opening 
statement. We will recognize you for 5 minutes.
    Mr. Lynch. Thank you, Mr. Chairman. Very briefly, obviously 
the interest of airport perimeter security is a tremendous one 
for all of us. I know that we have spent enormously on the 
safety and security of the processes within our airports. But 
this is something that--the security of our perimeters of these 
airports has become much more of a concern since the fairly 
recent incidents that involved my district. The young man who 
was apparently stowed away on an aircraft recently from, I 
believe it was South Carolina, to Logan Airport in Boston, 
actually was found deceased in my district, in the town of 
Milton in my district. So I was able to see up close the 
tremendous concern generated by this, the hardship on the 
family, the concerns of all the law enforcement involved as 
well, and obviously the concern within the aviation community.
    So I think it is worthwhile to spend some time to redouble 
our efforts to focus our resources on an area that we believe 
has been neglected.
    And I want to thank the witnesses here for their 
willingness to come before us to help us with this task, to 
help the committee to make sure that we're being thorough in 
our examination, that we're not overlooking anything, and that, 
you know, as a result of this incident and some others, that at 
the end of this process the American flying public will be 
safer and our communities will be safer, and our airports will 
be more secure. That's the goal here for both Democrats and 
Republicans. That's our intent here.
    And again, I want to thank the witnesses for coming before 
this committee to help us with our work. I yield back.
    Mr. Chaffetz. Thank you.
    I'd like to now introduce our panel so they can be prepared 
for their opening statements.
    Mr. John Sammon is the Assistant Administrator with the 
Transportation Security Administration. We do appreciate your 
being here.
    Mr. Stephen Lord is the Director of the Homeland Security 
Team at the Government Accountability Office.
    Mr. Jerry Orr is the aviation director at the Charlotte 
Douglas International Airport.
    Mr. Rafi Ron is the president of New Age Security 
Solutions, and is the former director of security at Tel Aviv-
Ben Gurion International Airport.
    And Inspector William Parker is the commander of Amtrak 
Police Department's K-9 Unit. We appreciate you being here as 
well.
    Pursuant to committee rules, all witnesses will be sworn in 
before they testify. Please rise, if you would, and raise your 
right hands.
    [Witnesses sworn.]
    Mr. Chaffetz. Thank you. Please be seated. Let the record 
reflect that all witnesses answered in the affirmative.
    In order to allow time for discussion, we would appreciate 
if you'd limit your verbal testimony to 5 minutes or less. Your 
entire written statement will be entered into the record.
    So with that, we'll start with Mr. Sammon. You're 
recognized for 5 minutes.

   STATEMENTS OF JOHN SAMMON, ASSISTANT ADMINISTRATOR, U.S. 
   TRANSPORTATION SECURITY ADMINISTRATION; STEPHEN M. LORD, 
DIRECTOR, HOMELAND SECURITY AND JUSTICE ISSUES, U.S. GOVERNMENT 
 ACCOUNTABILITY OFFICE; TJ ``JERRY'' ORR, AIRPORT DIRECTOR AND 
OPERATOR, CHARLOTTE INTERNATIONAL AIRPORT; RAFI RON, PRESIDENT, 
 NEW AGE SECURITY ISSUES, FORMER DIRECTOR OF SECURITY TEL AVIV-
     BEN GURION INTERNATIONAL AIRPORT; AND WILLIAM PARKER, 
         INSPECTOR, K-9 UNIT, AMTRAK POLICE DEPARTMENT

                    STATEMENT OF JOHN SAMMON

    Mr. Sammon. Good morning, Chairman Chaffetz, Ranking Member 
Tierney, and distinguished members of the subcommittee. I 
appreciate the opportunity to appear before you today to 
discuss the Transportation Security Administration's 
responsibility regarding perimeter security at U.S. commercial 
airports.
    I would like to emphasize three points. First, every 
airport has an individualized security plan of which security--
perimeter security is an important piece. Two, airport 
authorities are responsible for executing the plan. Three, TSA 
is responsible for approving the plan and inspecting airport 
compliance with the plan.
    Unlike checkpoint security, airport authority people 
investments play the lead role in carrying out airport 
perimeter security. TSA conducts airport inspections to enhance 
security and mitigate risk associated with perimeter integrity, 
including joint vulnerability assessments, special emphasis 
inspections, and the testing of access control processes at 
airports. TSA analyzes the results of these inspections and 
assessments to develop mitigation strategies that enhance an 
airport's security posture and to determine if any changes are 
required.
    Perimeter-related airport compliance has been inspected 
27,031 times over the past 16 months. Every commercial airport 
receives an annual security assessment, to include an 
assessment of perimeter and access controls. Earlier this year, 
TSA's Office of Security Operations initiated a special 
emphasis assessment and special inspection of all airports 
evaluating perimeter security, including fencing, non-fence 
manmade barriers, natural barriers, closed circuit television, 
electronic intrusion and motion detection devices. Assessments 
are complete for the largest airports, with the smaller 
airports expected to be complete by September 30, 2011. The 
results of the inspection were collaborative improvements and 
also violations which may result in civil penalties.
    Going beyond compliance, we work collaboratively with 
airport operators and airport associations, and in that 
collaboration, TSA issued updated and improved security 
guidelines for airport design and construction, as well as an 
innovative measures report which highlights best practices from 
airports of all sizes across the United States. The innovative 
measures report effort was the first of its kind in working 
closely with airports across the Nation on base lining and best 
practices in airport perimeter, access control, terminal 
frontages, and other key areas.
    Over 700 measures and practices from over 100 airports were 
assessed as part of this groundbreaking initiative. Because of 
that effort, airports now have a self-assessment module and a 
resource allocation tool. The tool incorporates attack 
scenarios, vulnerability scores, consequence scores, and 
countermeasure success probabilities. It allows airports to 
baseline their security programs against other airports' 
innovative measures that will directly inform decisions about 
improvements to provide the greatest risk reduction for their 
money at their location.
    TSA's goal is to work with airport authorities to stay 
ahead of evolving terrorist threats, while protecting 
passengers' privacy and facilitating the efficient flow of 
travelers and legitimate commerce. TSA's airport perimeter 
security initiatives are one part of that comprehensive effort.
    I want to thank the committee for the opportunity to 
discuss this important issue. I'm pleased to answer any 
questions you may have.
    Mr. Chaffetz. Thank you.
    [The prepared statement of Mr. Sammon follows:]

    [GRAPHIC] [TIFF OMITTED] T1820.003
    
    [GRAPHIC] [TIFF OMITTED] T1820.004
    
    Mr. Chaffetz. We'll now recognize Mr. Lord, who's from the 
Government Accountability Office. We'll recognize you for 5 
minutes.

                  STATEMENT OF STEPHEN M. LORD

    Mr. Lord. Thank you, Mr. Chairman, Ranking Member Tierney 
and members of the subcommittee. Thanks for inviting me here 
today to discuss aviation security issues.
    The attempted 2009 Christmas Day attack provides a vivid 
reminder civil aviation remains an attractive terrorist target 
and underscores the importance of today's hearing.
    Securing commercial aviation operations is difficult, given 
the hundreds of airports, thousands of daily flights, with 
millions of passengers and pieces of checked baggage. But TSA 
spends several billion dollars each year to help secure the 
system. However, risks to the system remain.
    Today I'd like to discuss three layers of the system. 
First, TSA's behavior detection program, also called SPOT; 
airport perimeter and access controls; and finally, TSA's 
checked baggage screening system.
    First, regarding TSA's behavior detection program, DHS has 
taken actions to validate the underlying signs of the program, 
but based on our past reporting more actions are needed. As we 
reported in May 2010, TSA deployed this program on a nationwide 
basis without first demonstrating that it was based on valid 
science. According to TSA, SPOT was deployed before a 
validation was completed to help address potential threats such 
as those posed by suicide bombers.
    The good news is DHS completed an initial validation study 
earlier this year and found that the program was more effective 
than random screening in identifying so-called high-risk 
passengers. However, as noted in the study, the assessment was 
just the first step. Additional research is needed, is going to 
be needed to fully validate the program. And some of the 
recommendations made in the latest DHS study mirror those we 
made in our May 2010 report.
    In sum, it's still an open question whether behavior 
detection principles could be successfully applied on a large 
scale for counterterrorism purposes in an airport environment.
    I would now like to discuss some of the key findings from 
our 2009 report on airport perimeter security. In terms of 
progress, we noted various steps TSA had made, including 
implementing the random worker screening program, expanding 
requirements for name-based background checks, and developing 
new biometric security standards. However, we found that TSA 
had not at the time completed a comprehensive risk assessment 
as called for by DHS. TSA subsequently completed such an 
assessment in July 2010; however, the updated assessment did 
not include an assessment of the so-called insider threat which 
TSA views as a significant threat. The risks posed by insider 
threats will be included in the next update due later this 
year.
    We also recommended that TSA consider making greater use of 
joint vulnerability assessments. These are a key tool in the 
TSA tool box and are completed in conjunction with the FBI. The 
latest data show TSA has completed joint vulnerability 
assessments on about 17 percent of TSA-supervised airports, 
leaving about 83 percent of these airports unassessed.
    The last point I'd like to discuss is TSA's efforts to 
deploy checked baggage screening equipment. This program is one 
of the largest acquisition programs within DHS. As highlighted 
in the report released to Representative Mica yesterday, TSA 
has upgraded the explosive detection requirements for this 
equipment but faces challenges in meeting these requirements.
    The explosive detection requirements for checked baggage 
machines were established in 1998, and subsequently revised in 
2005 and 2010 to better address current threats. However, TSA's 
current checked baggage screening systems do not meet the 2010 
requirements. Some of the machines are operating at the levels 
established in 2005. The remainder are operating at levels 
established in 1998.
    Our report describes some of the challenges TSA faces in 
procuring and deploying this very complicated technology. For 
example, DHS and TSA encounter challenges safely collecting 
data on the explosives physical and chemical properties. Our 
report contains six recommendations for improving TSA's process 
for acquiring these sophisticated systems. The good news is 
that TSA has agreed to take action to implement all six of 
these recommendations.
    Mr. Chairman, other distinguished members of the committee, 
this concludes my statement. I look forward to answering your 
questions. Thank you.
    Mr. Chaffetz. Thank you.
    [The prepared statement of Mr. Lord follows:]

    [GRAPHIC] [TIFF OMITTED] T1820.005
    
    [GRAPHIC] [TIFF OMITTED] T1820.006
    
    [GRAPHIC] [TIFF OMITTED] T1820.007
    
    [GRAPHIC] [TIFF OMITTED] T1820.008
    
    [GRAPHIC] [TIFF OMITTED] T1820.009
    
    [GRAPHIC] [TIFF OMITTED] T1820.010
    
    [GRAPHIC] [TIFF OMITTED] T1820.011
    
    [GRAPHIC] [TIFF OMITTED] T1820.012
    
    [GRAPHIC] [TIFF OMITTED] T1820.013
    
    [GRAPHIC] [TIFF OMITTED] T1820.014
    
    [GRAPHIC] [TIFF OMITTED] T1820.015
    
    [GRAPHIC] [TIFF OMITTED] T1820.016
    
    [GRAPHIC] [TIFF OMITTED] T1820.017
    
    [GRAPHIC] [TIFF OMITTED] T1820.018
    
    [GRAPHIC] [TIFF OMITTED] T1820.019
    
    [GRAPHIC] [TIFF OMITTED] T1820.020
    
    [GRAPHIC] [TIFF OMITTED] T1820.021
    
    [GRAPHIC] [TIFF OMITTED] T1820.022
    
    Mr. Chaffetz. We'll now recognize Mr. Orr. He's the airport 
director and operator of the Charlotte International Airport. 
We appreciate you being here, sir. You're recognized for 5 
minutes.

                 STATEMENT OF TJ ``JERRY'' ORR

    Mr. Orr. Mr. Chairman and members of the subcommittee, my 
name is Jerry Orr, and I'm the aviation director for the city 
of Charlotte, at the Charlotte airport. I have worked for 36 
years in airport management and was a small business owner for 
13 years before that. I'm here today to testify on airport 
perimeter security.
    I have been critical of the performance of the TSA since 
its inception. I am not critical of its mission. I am critical 
of its measures. In my judgment, the effectiveness of the TSA 
is compromised by a rigid attitude of arrogance and 
bureaucracy.
    In November of last year, the body of a young man was 
discovered in Milton, Massachusetts, and was thought to have 
fallen from an aircraft. I learned about a possible connection 
to Charlotte in the media and, therefore, reached out to our 
Federal security director. He did not want TSA to take the lead 
and instead recommended I ask our municipal police department 
to head up an investigation and TSA would assist them.
    Ultimately, the available evidence could neither prove nor 
disprove that a security breach had actually occurred at 
Charlotte. The police and TSA theorized how the young man may 
have accessed an aircraft. They came up with a reasonable 
assumption about what might have happened that excludes entry 
through a checkpoint. But the report fails to acknowledge that 
they could not conclusively rule out this possibility because 
TSA had failed to preserve their surveillance video of the 
checkpoints, and some of it was lost.
    I'm not saying that the young man came through a TSA 
checkpoint. What I am saying is that the TSA failed to even 
admit the possibility, and deflected attention elsewhere. This 
mentality serves to protect the Agency at the cost of real 
security needs.
    The investigation focused national attention on airport 
perimeter security. In Charlotte we have 19 miles of 6-foot-
high chain-link fence with three strands of barbed wire 
enclosing the airport. This fence meets all Federal 
requirements. We spend a half million dollars annually on 
maintaining the fence, all from the airport budget. We spend an 
additional $3 million on 75 personnel with perimeter security 
responsibilities. The fence is a deterrent. It says, keep out. 
However, the final line of security is the eyes and ears of the 
20,000 people who work inside the fence.
    TSA seems to believe that airports are automatically in 
violation of the regulations, even when they did everything 
they were obligated to do and it simply didn't work. To me, 
that's like saying that Customs and Border Protection itself is 
violating the law each time an illegal alien crosses into the 
United States.
    Other examples of TSA's lack of a partnership, we recently 
asked TSA to explain their security basis and their legal 
authority for directing us to do something. But TSA failed or 
refused to respond or even acknowledge our questions.
    TSA has conflicting roles in operational and regulatory 
capacities that are not kept separate. Having an Agency 
interpret the rules, implement actions, and then judge their 
effectiveness, lends itself to the possibility of abuse.
    I am confident that I am not the only airport operator with 
significant concerns about the effectiveness of TSA. An 
adversarial relationship between airports and the very Agency 
entrusted to help safeguard them is clearly detrimental to the 
goal of safety and security.
    So what can be done to improve our ability to focus on the 
real needs of our Nation's airports? Congress should continue 
to support--its support of allowing airports to opt out of 
using TSA, and ensure that the bureaucracy does not throw up 
arbitrary roadblocks to discourage us from pursuing this 
alternative. Any entity working with airports and airlines to 
achieve security must do just that, work with them. TSA's 
current ``because I say so'' culture does not foster respect.
    I also believe Congress should redirect some of the 
available funding for airport security from TSA directly to 
airports. The operator is most familiar with the airport's 
vulnerabilities and strengths and is well equipped to make 
effective enhancements.
    Safety and security are always our number one priority. 
There can always be more security, but the challenge is to 
provide better security. We need to spend money where it 
counts, on things that matter. The path forward to optimal 
security needs to be reasonable and collaborative. If airports 
are given the resources we need and a true partner for 
security, the traveling public will be the beneficiary.
    Mr. Chaffetz. Thank you, Mr. Orr.
    [The prepared statement of Mr. Orr follows:]

    [GRAPHIC] [TIFF OMITTED] T1820.023
    
    [GRAPHIC] [TIFF OMITTED] T1820.024
    
    [GRAPHIC] [TIFF OMITTED] T1820.025
    
    [GRAPHIC] [TIFF OMITTED] T1820.026
    
    [GRAPHIC] [TIFF OMITTED] T1820.027
    
    [GRAPHIC] [TIFF OMITTED] T1820.028
    
    Mr. Chaffetz. We'll now recognize Mr. Rafi Ron, the former 
director of security at Tel Aviv's Ben-Gurion Airport. Mr. Ron, 
you're recognize for 5 minutes.

                     STATEMENT OF RAFI RON

    Mr. Ron. Thank you, Mr. Chairman and members of the 
committee, for inviting me to testify today. I'd like to draw 
the committee's attention to three factors that I believe they 
are playing a key role in many of the shortcomings in airport 
security.
    The first one is the imbalance that was created shortly 
after 9/11 when the TSA had the overwhelming task of 
recruiting, training, and installing technology in airports 
around the country, something that has tended to be the 
backbone of the TSA operation and influence over security at 
the airports. At the same time, the airport facility security 
has received much less attention, and not only that of 
screening of passengers and bags where most of the attention 
and the funding went into, but it was also executed according 
to the law by TSA, while the rest of it was left for the local 
authorities to take care of. Funding was relatively short. The 
standards for performance of the security task on the local 
level are not very clear and in many cases, do not even exist.
    And the point of--or the issue of perimeter security is a 
very good example for that, because I think that traveling 
around the country, one can easily notice that, first of all, 
there is very little consistency in our airports as far as 
perimeter security is concerned. Second, most of our airports 
today are still not protected by an operating perimeter 
intrusion detection systems. In other terms, we don't know when 
a breach occurs. We get to know that only when it is addressed 
by somebody or when we end up with a stowaway making his way to 
the wheel well and, sadly enough, losing his life after 
takeoff. And obviously, this is not a good reasonable standard 
compared to those that we implement on the passenger and bag 
screening operation.
    The other aspect of that is that the issue of jurisdiction 
is not very clear. When it comes to the security operation, 
security facility operation at the airport, by law it is the 
local law enforcement agency or department that is responsible 
to do this. But, yet, most or many of the police departments 
that provide that service in airports are still implementing 
their own more as a law enforcement agency rather than a 
security agency, and there is a major difference between the 
two.
    And once again, if you look at perimeter as a reflection of 
this problem, you can see that the role that the local police 
department is taking on perimeter security at airports is 
minimal and is usually based on responding to calls rather than 
the early detection and the prevention.
    So I think that there are two areas that still need to 
receive much more attention. One is the role and the funding of 
the local authorities as far as the airport facility security 
is concerned. And second, the need for standards that will 
create consistent, high-level performance that will 
characterize the security in airports around the country. I 
thank you very much.
    Mr. Chaffetz. Thank you, Mr. Ron.
    [The prepared statement of Mr. Ron follows:]

    [GRAPHIC] [TIFF OMITTED] T1820.029
    
    [GRAPHIC] [TIFF OMITTED] T1820.030
    
    [GRAPHIC] [TIFF OMITTED] T1820.031
    
    [GRAPHIC] [TIFF OMITTED] T1820.032
    
    Mr. Chaffetz. A little bit of explanation here as we 
introduce Inspector Parker. You may be curious as to why we 
would invite somebody from Amtrak, Amtrak Police to be here at 
the hearing regarding airport security. One of the questions, I 
think, that is a legitimate one that this committee would like 
to explore is, while the TSA has invested hundreds of millions 
of dollars in whole body imaging machines and technology, there 
are those, particularly at the Pentagon, that have come to the 
conclusion that dogs are the single best way to find explosive 
devices.
    I'd like to ask unanimous consent to introduce in the 
record--there was a press conference by Lieutenant General 
Michael Oats. It says, ``Dogs are the best detectors.'' And 
this, I would point to this, I know all good Americans get this 
magazine, Airman, which is the magazine of the U.S. Air Force. 
In their May/June 2011 edition, this little pull-out quote here 
says, ``There's no technology proven more effective in the 
detection of explosives than the K-9.''
    And there are questions as to are we investing enough in 
technology that we know that works in K-9s, according to the 
Pentagon, having spent literally tens of billions of dollars.
    So, again, without waxing on too much more, we do truly 
appreciate Inspector Parker being here. And as just a bit of 
explanation, he's going to give a bit of testimony and then 
we're going to have a demonstration. Don't let anybody in here 
worry anybody in here. But I'll let him explain how we're going 
to conduct this.
    We would just ask that anybody here in the audience stay 
put, and if you have some sort of, you know, something, we're 
glad that you're here, Inspector Parker. But we're going to do 
a bit of a demonstration. We just ask that you kind of hang 
tight while we do this demonstration, and appreciate the leeway 
here of the committee as we do this demonstration. Inspector 
Parker, we'll give you great leeway for your testimony.

                  STATEMENT OF WILLIAM PARKER

    Mr. Parker. Good morning, Mr. Chairman and Ranking Member 
Tierney. My name is William Parker, and I'm the inspector 
commander of the Amtrak Police Department's K-9 unit. I'm 
honored to be here today, and I appreciate the invitation to 
speak with you about what dogs can do to improve airport 
security and detect explosives.
    A well-trained dog is more capable, useful, reliable and 
effective than equipment. Dogs do not depreciate like machines 
do. If dogs are trained properly and if their training is 
consistent, their skill level will increase with experience.
    Perimeter security is of great concern to airports and the 
Transportation Security Administration. Many airports rely on 
surveillance beams and cameras to protect their perimeter. The 
problem is, if nothing appears on the camera after the alarm 
goes off, you can't just assume nothing's there. Someone has to 
respond and make sure no one is hiding from the camera.
    A well-trained law enforcement officer with a well-trained 
patrol dog can find and address that threat immediately without 
waiting for backup.
    On and after September 11, 2001, we used explosive dogs 
intensively to sweep airport terminals. The dogs were used to 
sweep for explosives in the morning before the terminal opened 
and in the evening when the terminal closed. I saw a real surge 
in interest in K-9s' capability after 9/11 as people realized 
dogs were effective in crowded environments where their 
explosive screening abilities were better in crowds than 
technology.
    At Amtrak, trains are randomly swept for explosives before 
boarding. We keep an explosive team present at the boarding 
gates to provide a detection capability and immediate response.
    I think a dog on a jetway at boarding would improve 
security at no inconvenience to travelers, and would provide an 
elevated sense of security. Dogs are very effective not only in 
detecting explosives, but as a deterrent in many environments, 
any environment when deployed properly.
    Amtrak has many challenges as airport authorities, 
particularly the need to secure open-space areas that intruders 
could use to come into our property. We have been able to 
implement some new procedures that could be used in airports. I 
have helped pioneer a new application of K-9 called ``vapor 
wake.'' Vapor wake is a dog trained to smell the wake of 
explosives and material in the air after a person passed by 
that area. Amtrak is working with Auburn University and other 
agencies to develop this application, and other agencies such 
as TSA are starting to use vapor wake K-9 methods.
    In closing, I would like to reiterate my position that a K-
9 program is an excellent investment for any agency that needs 
to secure high-traffic areas or facility perimeter, provided 
the program is properly funded and supported with a strong 
infrastructure.
    [The prepared statement of Mr. Parker follows:]

    [GRAPHIC] [TIFF OMITTED] T1820.033
    
    [GRAPHIC] [TIFF OMITTED] T1820.034
    
    [GRAPHIC] [TIFF OMITTED] T1820.035
    
    Mr. Parker. To this point, I've brought two teams with me 
to give a brief demonstration. After we conclude the demo, I 
will be happy to answer any questions you might have. And thank 
you again for this opportunity.
    What you are going to see in this demo, sir, is that--I 
explained to you about vapor wake technology. The dog will be 
able to detect people that walk by. It is not intrusive. They 
will not stop anybody's path.
    You're going to see two--from my right, your left, we're 
going to have people come through the door. As you see the dog 
is like pretending she's at a checkpoint. People are going to 
come in and the dog is going to be able to detect who came in 
with something on them. We're just waiting on a crowd of 
people. These are your staffers.
    As you see, sir, the dog is not intrusively hurting anybody 
walking. As you see now, that's a hit. As you see, that person 
walked by. The dog is walking. Stop decoy. As you see, this is 
a response that the dog would give. And that's a person, and 
this individual has ankle weights on that has explosives on his 
ankle. So you can look at him physically and not see anything, 
but he has about 5 pounds of explosives on his ankle.
    Could you show the committee, sir? And in that is smokeless 
powder.
    All right. The second demonstration we're going to give--
okay. You can move. The second demonstration we're going to 
give is, like I say, when a person passes through an area. 
That's Levi, our chocolate Lab.
    As a person passes through an area, you'll see a person 
walking through your room right there, over there to your left. 
She's going to walk and sit down. We're going to have a dog 
come through that same area. That person has already sat down. 
That dog is going to come in and follow the scent where the 
person walked to and determine where she's located at. They're 
just trying to give it a little bit of time because in theory, 
it's been known that somebody could walk through the area, and 
15 minutes after they have passed through, the dog could still 
pick that up. And that's a scientific fact that's already been 
noted.
    And that's Zeta coming in. Good girl. Let's give the dogs 
and handlers applause, sir.
    Again, I want to thank you for this opportunity, and any 
questions you may have.
    Mr. Chaffetz. Thank you. Very impressive. Appreciate it.
    I'm now going to recognize myself for 5 minutes as we move 
the questioning. And we'll go from there.
    I want to start with Mr. Sammon here and the GAO. The GAO 
in the report that's released out today, it's dated today, on 
page 12 and 13, it says, ``Our analysis of TSA data show that 
from fiscal year 2004 through July 1, 2011, TSA conducted JVAs, 
or joint vulnerability assessments, at about 17 percent of TSA-
regulated airports that existed at the time, thus leaving about 
83 percent of airports unassessed. How can that be?
    In 2009, September 2009, there was a report issued saying 
that 87 percent of the airports haven't been assessed. And over 
that timeframe we've now only moved that number to 17 percent 
assessment?
    Mr. Sammon. The joint vulnerability assessments are done in 
concert with the FBI. They are done--they're extensive 
assessments. They are done in a limited number of locations, 
but every single commercial airport receives an annual security 
assessment.
    Mr. Chaffetz. But wait, wait. Why aren't there 100 percent 
JVAs done, joint vulnerability assessments? Is the goal not to 
get to 100 percent?
    Mr. Sammon. TSA does complete security assessments, 
including the perimeter of all airports every year. Including--
we've done 27,000 inspections.
    Mr. Chaffetz. I'm asking about the joint vulnerability. I 
recognize they're different assessments.
    Mr. Sammon. There are different assessments, and it's a 
different assessment.
    Mr. Chaffetz. What is your goal? Do you have the goal of 
getting to 100 percent? Yes or no?
    Mr. Sammon. We will not get to 100 percent of 450 airports 
with the FBI every year, no.
    Mr. Chaffetz. Not even every year. At some point. I mean--
okay. Mr. Lord, you've looked into this. What were your 
findings in this particular area?
    Mr. Lord. When we first looked at it, the number was 
actually 13 percent. And that was from the 2004-2008 timeframe. 
And we asked TSA for some updated analysis. So the numbers have 
actually gone up. It's now 17 percent. These are very intensive 
examinations focused on high-risk airports, and TSA considers 
them the gold standard. They obviously conduct a whole host of 
other activities and inspections and testing. I mean, there's 
quite a few things they do. But you know, we thought this was 
worthwhile to single out, given the significance. We do 
recognize, you know, they're difficult to do quickly and you 
have to get the FBI involved. So it is a lot.
    Mr. Chaffetz. What I don't understand is, given the 
imperative, given the knowledge and understanding that we're 
only as strong as the weakest link, and it may be that small 
airport, as we saw on 9/11 when that person got on a plane, not 
at one of the major, major airports initially, and got into the 
system, got behind the security line. Why is the TSA not 
demanding and working toward getting to 100 percent? I don't 
understand. There's 457 airports. Why aren't 457 airports 
getting this JVA done?
    Mr. Sammon. This level assessment will be done with a 
limited number of airports. Not all airports will be done. They 
will have inspections and they will have a complete assessment 
every year.
    Mr. Chaffetz. I just, I absolutely don't understand that. I 
don't understand. I think it's unacceptable. Let me move on.
    Mr. Orr, in your testimony, you said that the TSA has yet 
to approve this airport security program. I think you said in 
your testimony, ``We have been trying to get revisions to our 
approval for about a year now.'' Can you explain that a little 
bit more, please?
    Mr. Orr. Yes, sir. We're required to amend our security 
plan anytime there's a change in our security procedures. And 
we submitted an amendment to the local Federal Security 
Director over a year ago; heard nothing for 6 or 7 months; got 
comment, addressed that comment. It again lay idle for a couple 
of months. And then our assistant security director that we had 
been working with disappeared and a new one appeared. And then 
the process started all over.
    Mr. Chaffetz. Mr. Sammon, do you care to respond to that?
    Mr. Sammon. Yes. As I understand, the request to rewrite, 
to change the--amend the security plan--was in progress, was 
initiated about a year ago. There was a joint vulnerability 
assessment with the FBI conducted in the fall of 2010. It's my 
understanding--I don't know this personally--but it's my 
understanding the parties agreed to let's hold off on 
completing the rewriting of the airport security plan until we 
understand the results of the joint vulnerability assessment.
    Now, the joint vulnerability assessment, in terms of its 
analysis of perimeter security, was not particularly 
flattering. And so in terms of where the amendment is, in terms 
of rewriting it, I think both parties agreed----
    Mr. Chaffetz. Well, it sounds like he's been waiting for a 
year. Do you dispute that?
    Mr. Sammon. Both parties agreed to wait until--something 
you brought up last time is the joint vulnerability assessment, 
and that was an input. That should be very insightful in terms 
of what you do with your security plan.
    Mr. Chaffetz. Mr. Orr.
    Mr. Orr. We've had two joint vulnerability assessments, one 
in 2007 and one in 2010. At the conclusion of each one, we 
asked for additional information; help us to understand what 
you're talking about here, and in both cases have not received 
that. We submitted our plan, our amendment. We heard nothing. 
We checked on it a couple of times. They said it was in the 
works.
    Mr. Chaffetz. And this is the frustration. You're telling 
me that you have no goal to get to 100 percent of joint 
vulnerability assessments on the 457 airports. You made 
improvement from 13 percent to 17 percent. And then we have an 
airport where you have done a JVA, a joint vulnerability 
assessment, and you're not getting the responsiveness. These 
should be collaborative efforts. You've got people all across 
the country. You're supposed to be the expert in the middle. 
That's my concern.
    My time has expired. I now recognize the gentleman, Mr. 
Tierney, from Massachusetts for 5 minutes.
    Mr. Tierney. Thank you very much. Mr. Lord, this joint 
vulnerability assessment, what's your analysis of how likely it 
is that 100 percent of the airports could undergo that 
particular scrutiny every year?
    Mr. Lord. Well, we don't think that it would be appropriate 
to do every year, but perhaps on a rolling basis. That's how 
they do now. They have a target within a 3-year timeframe, they 
try to focus, you know, complete JVAs on the high-risk 
airports. It's a matter of resources but obviously they're 
expensive and you need to get the FBI's cooperation.
    Mr. Tierney. Currently they're on a 3-year rolling plan to 
do 100 percent of the high-risk airports within that timeframe.
    Mr. Lord. That would be difficult to achieve under the 
current process. I would defer to Mr. Sammon on that. He would 
know more about that.
    Mr. Tierney. But it's your understanding that that's the 
plan.
    Mr. Lord. It's not the plan. As Mr. Sammon stated, the 
current goal is not to do 100 percent. My point is they do them 
on a rolling 3-year basis.
    Mr. Tierney. So Mr. Sammon, how many of those high-risk 
airports would be done on the rolling 3-year basis?
    Mr. Sammon. I'd have to get back to our operations people 
and get you an answer. I'm sure we'd be happy to respond to the 
committee on that.
    Mr. Tierney. Would it be close to 100 percent? Would it be 
50 percent? Would it be 25 percent?
    Mr. Sammon. I would have to check with the FBI. We need FBI 
cooperation. It's not a TSA event. Getting FBI resources, 
review of the project, sign-off, and so on and so forth; it's 
not a TSA--we don't run this thing by ourselves.
    Mr. Tierney. Okay. Mr. Sammon, let me--what we were talking 
about, the Screening Passenger Observation Techniques program, 
the SPOT program, can you differentiate that from the usual 
type of random search?
    Mr. Sammon. Yes. Essentially I think your other witness on 
the panel, Mr. Ron, is an expert in this. But what you're 
looking for are microfacial anomalies in terms of the way 
people are behaving, particularly the kinds of facial movements 
they have as they approach the checkpoint. These SPOT programs 
resulted in more than 2,000 arrests since 2006, again, for 
people who had perhaps criminal and other kinds of fraudulent 
other illegal activities that they were engaged in.
    But the science is based upon microfacial anomalies and the 
way that people look, and that's what they're trained to. So 
it's more than random. You're looking for people. You're 
looking at the crowd, looking for people who have, in that 
context, somewhat aberrant looks.
    Mr. Tierney. Mr. Ron, we're about a billion dollars into 
this, or three-quarters of a billion dollars into a quarter we 
didn't ask for. Is that worth the money?
    Mr. Ron. Yes. I think that the investment in the behavior 
observation certainly makes sense because all the rest of what 
we are doing is very much limited to the detection of items. 
And I think 10 years after 9/11, with the attempted attacks 
that we had during this period of time, we reached the 
conclusion that we need to spend more attention on people 
rather than just on items. And observing behavior is one of the 
basic tools that can be used at the airport, but obviously it 
is only one single tool in a much wider and more complex 
strategy.
    Mr. Tierney. What kind of technology is involved in the 
SPOT program?
    Mr. Ron. Well, it depends on the way you define technology. 
If we're looking at technology from the point of view of 
machines that are involved, or computers that are involved in 
the process. This is not a highly technological process. This 
is more a human-based process. But there's certainly room to 
expand that into the technological area by use of surveillance 
technology, and I mean smart surveillance technology, not just 
cameras out there, but those that can identify certain types of 
events or behavior and may help us respond to it in real time.
    Mr. Tierney. So at the granular level, it could be done 
just with trained human beings exercising the process that's 
involved.
    Mr. Ron. Well, right now it is mostly training human 
beings, yes.
    Mr. Tierney. Well, I would imagine when you start getting 
remote possibilities in there and technology for that, the cost 
would be enormous when you're talking about all the airports 
that are around.
    Mr. Ron. Yes, this is correct.
    Mr. Tierney. Mr. Orr, I just want to, just real quickly, 
you talked about having the local entity be able to opt out of 
TSA on that. And if your organization did that, would you be 
willing to take the full responsibility and liability for 
failures to succeed?
    Mr. Orr. Yes, sir. I have that anyway.
    Mr. Tierney. All right. Good. I yield back.
    Mr. Chaffetz. Thank you. I now recognize the chairman of 
the Transportation Committee, Mr. Mica of Florida.
    Mr. Mica. Thank you. Mr. Sammon, you had as of last week, 
my figures are you had 3,905 people in Washington, supposedly 
working for TSA, and 27 percent of them were in a supervisory 
or an an administrative capacity, making on average, all of 
them, over $104,000.
    How many of those folks were dedicated to doing the 
vulnerability assessments that we've been talking about here?
    Mr. Sammon. In terms of the vulnerability assessment, I 
would say a limited number. But we can get you the numbers.
    Mr. Mica. How many?
    Mr. Sammon. I don't know, sir.
    Mr. Mica. A dozen, half a dozen?
    Mr. Sammon. I'd have to get back to you. I'd like to give 
you a truthful answer.
    Mr. Mica. Next you have 9,656 administrative personnel out 
in the field. How many of those folks are involved in the 
vulnerability assessment? Those are administrative people, not 
screeners.
    Mr. Sammon. I would have to give you the same answer in 
terms of responding to the committee.
    Mr. Mica. And they are having trouble getting back with 
people like Mr. Orr I see because the FBI and other agencies 
don't cooperate. That is your explanation today?
    Mr. Sammon. No, sir. In terms of the ASP, I will look into 
it. I am not personally familiar----
    Mr. Mica. You couldn't possibly have an FSD or some of the 
people who are making over $100,000, and maybe you could get 
for the record the number of people that are making over 
$100,000.
    At Mr. Orr's airport, none of those people could check off 
on a security plan to protect the perimeter of the Charlotte 
Airport. Have you set the protocols and standards in 
Washington?
    Mr. Sammon. The plan is worked out locally with the airport 
director and the FSD. And it is approved through Washington.
    Mr. Mica. But it takes 6 months to even get a response.
    Mr. Sammon. I think the JVA----
    Mr. Mica. Can't you understand their frustration? The other 
thing, Mr. Orr, too, if anyone contacts you and there is any 
intimidation after your testifying here today, or any 
indication that they are giving you a hard time in any way, I 
want you to let this committee know immediately.
    Mr. Orr. Yes, sir.
    Mr. Mica. I have seen the way these people operate, the 
intimidation. I mean, you're pretty brave to be with us today. 
What is the current most serious risk that we face?
    Mr. Sammon. I think right now in terms of non-metallic 
explosives on airplanes coming in from overseas.
    Mr. Mica. Okay. That is a good point. Actually, Mr. Pistole 
said that way back in November 2010, that we were in the risk 
management business, being a risk-based intelligence 
organization. That is what he is trying to achieve and I 
support that goal.
    Do we have a plan from TSA that you could share with us to 
move toward that?
    Mr. Sammon. I don't have a plan today, but I would 
recommend the committee work with Administrator Pistole. His 
number two----
    Mr. Mica. Can you provide us with an update from him on 
where you go--where you are going with that risk-based plan?
    Mr. Sammon. I will tell you that he is working on a number 
of alternatives and he hopes to announce something soon this 
summer.
    Mr. Mica. But we are looking forward to that. And you 
mentioned that most of the risk is coming in from out of the 
United States. For example, Orly was the shoe bomber, Mr. Reid. 
Amsterdam, the diaper. Christmas Day bomber, the London liquid, 
the Yemen toner. The last count I had--well, we had under 100 
TSA personnel overseas. It was really 54 when I checked. Do you 
know what the number is now?
    Mr. Sammon. I don't know off the top of my head.
    Mr. Mica. Do you know if you had contact with the Secretary 
of State and others in trying to increase the presence of TSA 
overseas?
    Mr. Sammon. We work with overseas countries. We have 
people----
    Mr. Mica. Would you provide the latest contacts with the 
Department of State and others to the committee on--because you 
said the threat is coming from there.
    Now, whole body imaging equipment, which we spent a half a 
billion dollars on and the deployment of--I mean, we are 
probably in the billion-dollar range.
    At this March 16th hearing, I asked the question: We know 
that terrorists are moving to body-cavity inserts with surgical 
implants. Does the whole body imaging equipment direct this 
kind of--can it detect this kind of threat? The answer from all 
of them, the experts, was that it does not.
    Mr. Sammon. It will depend. And I can't discuss it in this 
setting. It is classified. I would be happy to have a 
classified update.
    Mr. Mica. They said that it did not. Now, we have known 
since--this is a BBC news release--that from 2009, September 
2009, that terrorists were now moving. In fact, they used a 
bomb on a terrorist implant and it blew up in front of a Saudi 
prince, killed himself. I mentioned this back in--what is the 
date? March. And that appears to be a threat, that they are 
moving.
    Obviously they have gone from shoes, to diaper, to liquid, 
to cartridges. Wouldn't you say that it looks like the body 
implant might be a way to go?
    Mr. Sammon. I dispute that BBC report. But again, I can't 
discuss it in here. We could do it in a classified setting.
    Mr. Mica. There is no dispute. He blew the crap out of the 
guy.
    Mr. Sammon. Sir--I will be happy to discuss it in a 
classified setting.
    Mr. Mica. Well, in any event--and I mention this--and it 
was also mentioned that the equipment we spent a billion 
dollars on can't do anything about it. And TSA finally gets to 
July 6th, gets recently briefed air carriers and foreign 
partners to provide greater insights into intelligence 
indicating get you interested. There is terrorists to target 
aviation. And they name specifically the threat of body 
implants as a threat. Is that something you issue?
    Mr. Sammon. I would be happy to discuss the specifics of 
that in a classified setting, sir.
    Mr. Mica. I mean, you can't tell me that you----
    Mr. Sammon. We have spoken with the airlines and talked to 
them about security procedures, yes, sir.
    Mr. Mica. Did it take you to July to finally tell them, or 
did you tell them that this might pose a threat before then?
    Mr. Sammon. We have been working on non-metallic threats 
for the airlines for a considerable period of time. And this 
specific threat was based on specific intelligence that was put 
together----
    Mr. Mica. And most of the testing of that equipment, both 
by this committee--directed by GAO has been unsuccessful both 
in reports that have been published and also in GAO reports 
that also look at your backup system, which is the SPOT 
program, which they termed almost a total failure----
    Mr. Sammon. I think Mr. Ron----
    Mr. Mica [continuing]. In addressing this risk.
    Mr. Sammon. I totally disagree with you, in terms of what 
you are looking for are other alternatives to get around 
technology as people tend to try to design----
    Mr. Mica. Are you aware of the hearing that was conducted 
by the Science and Technology Committee where Mr. Broun from 
Georgia, the chairman, questioned the use--the current 
application of standoff behavior detection, which you employ 
now, versus the active questioning, which is done under the 
Israeli system?
    Mr. Sammon. I think they are both very good.
    Mr. Mica. Well, the--everyone who testified, every expert 
said that the TSA current procedure is a total failure and they 
further validated the findings of GAO.
    Mr. Sammon. I'm not familiar with the witnesses.
    Mr. Mica. Again, I had the opportunity 2 weeks ago to be in 
Tel Aviv at Ben-Gurion Airport to see how it was done. And it 
can be done on an interactive basis, even with a large 
population, if we go to risk-based rather than hassling 
innocent Americans, veterans, military, children and people who 
pose absolutely no risk.
    I yield back the balance of my time.
    Mr. Sammon. So I would encourage you to speak, to work with 
Administrator Pistole. Thank you.
    Mr. Chaffetz. We try. You know, we try to get the senior 
most people to come before this committee and they refuse. And 
that is one of the great frustrations. That is no surprise to 
the TSA. I would love to work with them, love to work with 
them. But that doesn't happen. That is the frustration of the 
committee.
    Mr. Mica. Mr. Chairman, if they continue just to--a point 
of procedure. I would be willing and I will advocate that we do 
subpoena the appropriate personnel. They send us people like 
this who cannot provide us with the information. This is the 
chief investigative committee of the U.S. House of 
Representatives. And they are going to appear one way or the 
other or cooperate one way or the other. And I put them on 
notice again today.
    Mr. Chaffetz. I now recognize the gentleman from Texas, Mr. 
Farenthold, for 5 minutes.
    Mr. Farenthold. Thank you very much. I appreciate it. 
Sitting on committees that have the most jurisdiction over the 
TSA, I sit on this committee, Mr. Mica's Transportation and 
Infrastructure Committee, and the Homeland Security Committee. 
These are issues that deeply concern me in my work with 
Congress and I am happy you all are here. I'm happy to be able 
to discuss this again.
    And I'm probably the recipient--I have gotten more TSA pat-
downs since I have been in Congress than I have gotten pat-
downs from my wife. Since the topic of this is perimeter 
security, I wanted to start with that, Mr. Sammon.
    To what degree does the TSA coordinate with the FAA, for 
instance, on spending on airport security? I know in Corpus 
Christi we recently got about $5 million from the FAA to 
improve security. But has there been any action with the TSA in 
determining where the multiple dollars are best spent?
    Mr. Sammon. I think that is--since the GAO report you have 
seen come out, a number of things we have been working for 
several years to address the specific issue you're talking 
about. First of all, we worked with the airport community to 
come up with recommended design guidelines for airport planning 
and construction. A lot of the money the airports use for 
planning and construction comes from the FAA.
    Next we worked with the Homeland Security Institute to 
develop a best practices from all of the airports.
    Mr. Farenthold. I'm sorry. I have a real short amount of 
time. But you are saying you're now working regularly with the 
other agencies to make sure the right hand knows what the left 
hand, the government, is doing?
    Mr. Sammon. What we are doing is working with the airports. 
They have a tool. It is a specific computer program they can 
run through their system. The idea is for the FSEs to work with 
the airports to come up with the optimal security spending per 
airport. It is not the same everywhere.
    Mr. Farenthold. Okay. And we talk about high-risk airports. 
What is not a high-risk airport when I can get on a commuter 
jet at any airport in the country and end up at a hub airport 
and be on the biggest airliner in the world? What would not 
constitute a critical airport?
    Mr. Sammon. I agree with you 100 percent. The report we got 
in terms of the 700 innovative measures came from airports as 
small as Asheville, from the airports such as Delta County, 
Minot. So it is a mixture of big airports and small airports 
that have gotten into best practices in terms of what are the 
kinds of things that are appropriate for each airport.
    Mr. Farenthold. All right.
    Again, let me go on to Mr. Orr. I apologize for jumping 
around. I have a lot of questions and a limited amount of time. 
You're talking about spending on, for instance, baggage 
screening equipment. I will just speak from experience. The 
airport I use most is the Corpus Christi Airport. We have 3 
airlines, American and Continental with small regional jets, 
and Southwest with 737s. Each individual airline has a 
screening machine staffed by two TSA agents. We bought three 
machines for the Corpus Christi Airport and there is probably a 
fourth one because Delta used to come in there.
    Why couldn't there just be one and a couple of TSA agents? 
There are never that many people there. Why are we--do we have 
any clue why we are spending multiple----
    Mr. Lord. That is a great question. TSA has an electronic 
baggage screening program which they are trying to move to what 
they term ``optimal solutions'' for each airport. And 
essentially what that means is in many cases they are trying to 
remove the stand-alone machines and use more efficient systems 
or even so-called in-line systems, which require less personnel 
to operate. I'm not sure if that particular airport is on track 
to get an in-line system.
    Mr. Farenthold. All right.
    And let me go to Mr. Ron for a second. One of the--one of 
the things I hear consistently from my constituents--try saying 
that three times fast--is why don't we follow more of the 
Israeli model of dealing with people instead of things? The 
answer I have gotten from a lot of people within our government 
is Israel only has a couple of airports and not nearly the 
amount of traffic that we have. Could we implement the Israeli 
system for a reasonable cost in the United States?
    Mr. Ron. Well, first I would like to say that the Israeli 
solution is not really an issue when it comes to volume. And I 
don't think that this is the main consideration. I think that 
the main consideration is that the Israeli legal culture, the 
environment is very different from the American one, and 
therefore I would not recommend to adopt the Israeli model as 
is.
    But at the same time I strongly recommend that the concept 
that is driving the Israeli solution, which is identifying the 
level of risk of individual passengers and responding to them 
with a comparable level of search and an interview, as 
necessary, is the right way. And I think that an American 
solution that would be more comparable to the American 
environment can and should be developed and implemented.
    Mr. Farenthold. Thank you very much. I am out of time. I'm 
hopeful we will have a second round of questioning because I 
have at least 5 minutes more. Mr. Chairman, thank you.
    Mr. Chaffetz. Thank you. I now recognize the gentleman from 
Arizona, Mr. Gosar, for 5 minutes.
    Mr. Gosar. Thank you. Inspector Parker, you know, we have 
spent--we have deployed 500 advanced imaging technology 
devices, spent $121--$122 million on the advanced imaging 
technology. We have also spent another $30 million on the 
puffer machines that shoot air blasts at passengers and sniff 
for explosives, but they rarely work properly.
    Tell me what the end return on investment of dogs is. I 
mean, I see some problems with this, because you have to move 
everybody through these technologies, but that animal moves. It 
covers a wide range of ground. So tell me what the return on 
investment is.
    Mr. Parker. The return on it, sir, is mobility. You don't 
have to spend money to integrate any new odor to it because a 
dog is a little bit better than machinery, because technology--
we can introduce odor that you come out anything new to a dog, 
and in 2 or 3 weeks they are proficient at it, as long as you 
keep that proficiency up.
    Like I say, you can take the dog to an area, versus you 
have to bring people to an area, as you say. And it gives a lot 
of people more sense of security when they see a dog and 
especially when they can see a dog working. As you saw, the dog 
was standing there, people walk through. And we do it at Amtrak 
all the time. People come out on the Acela with that dog at the 
boarding gate and people are happy to see him and it is not 
intrusive and the dog is working. And who don't like dogs?
    Mr. Gosar. The person who doesn't like dogs I don't want to 
know. Tell me the average lifetime of an active K-9.
    Mr. Parker. Without any medical problems, we get a dog at a 
year old. I like to have the dog work until they are about 7 or 
8 years old, because after the first 2 years or so, that is 
when the dog really gets into its prime again if he is well 
trained and proficient training is there. So you will get a 
good 5 years, without adding any software to him or getting a 
new breed because something else then came out. We just add it 
to a dog. We just add it to a scent pitcher and that is another 
odor that he is able to detect and perform.
    Mr. Gosar. You know, I'm a businessman, so tell me what the 
cost of that K-9 cost is.
    Mr. Parker. Well, it ain't the same cost as technology, 
sir.
    Mr. Gosar. Interesting. Would you say a little bit or a lot 
less?
    Mr. Parker. A lot less. And you have to understand dogs, 
like I say, don't depreciate. If anything, they go up more in 
value and they will be more effective when they get all of the 
training that they need.
    Mr. Gosar. Now, they are also very keen about detecting 
behavior, are they not?
    Mr. Parker. Yes, sir. And that is why the vapor wake dogs 
are very important right now, because they can screen people 
without them even being known. If you come to Amtrak, we do it 
all the time. And I know you know about the rush that comes 
through our gates. And these dogs screen people, and they keep 
on going without even being aware they are being searched.
    Mr. Gosar. Can they detect an implant, a bodily implanted 
device?
    Mr. Parker. Well, sir, scientifically right now, there is 
no data that says the dog can or cannot. But given the 
schematics of a person's body and, you know, dogs can detect 
cancer on people's bodies, tumors, the dogs can detect anything 
that they are taught. I think if the dog is taught to do that, 
he would be a very real good asset for that.
    Mr. Gosar. They are very innate about picking up 
differences in how people, as you said earlier. One of the 
biggest things, Mr. Sammon, I have seen in my limited time on 
the Hill is uncoordination of coordination. In fact, I had to 
put a bill just to break down jurisdictional boundaries of two 
different agencies. So it seems to me like the biggest problem 
that we have here is tell me who the lead is in all of this. 
Who is the kingpin? Who actually dictates how all surveillance 
or a perimeter security should be dictated?
    Mr. Sammon. As I said in my opening point, the airport--
every airport has a plan. The airport is responsible for 
executing a plan with their people and----
    Mr. Gosar. I'm going to interrupt you again. Who is 
ultimately--that is not it. Is it Homeland Security? Who 
oversees the whole process of these whole aspects of a 
perimeter surveillance?
    Mr. Sammon. TSA oversees the plan and inspects the plan.
    Mr. Gosar. Okay. So you have the jurisdiction to do so?
    Mr. Sammon. We can--if there are deficiencies in the plan, 
we can levy fines of civil penalties, yes, sir.
    Mr. Gosar. So it seems to me that you could ante up all 
agencies to say, on a timely basis, that you do this. I mean, I 
have seen it. And just to give you a quick example, I have seen 
a flood, and I have seen an agency head from the Forest Service 
make sure that everybody is lined up in time, in real 
perspective, without delays. I have seen it happen. So I know 
it can happen. So it seems to me like the buck stops with you, 
then.
    Mr. Sammon. So, again, what we want to do--and I think one 
of the things that--with GAO, is a comprehensive look at what--
--
    Mr. Gosar. I'm very aware of what government does. It 
studies and studies and studies. And by the time you get a 
study out, it is antiquated. It seems like there should--wait a 
minute. It seems like there should be a minimum standard that 
is equating all the way across the board. And it seems like we 
are missing the point, because I think we need to be using Mr. 
Ron and Inspector Parker's ideas within this, because we have 
to have some minimal standards.
    And I'm also from Arizona and so I know that those numbers 
are not right. I suspect that--well, just to give you a quick 
example. We are talking about those that you know about, 
security breaches. They are not the ones that you're not 
talking about, that you don't know anything about. And you 
can't tell me that those don't occur. We sit on the border and 
we are saying that we apprehend one in about every four.
    I hope those aren't the same kind of numbers here. Because 
from what we have had in previous testimony, there is a lot of 
people carrying badges out there that we don't have any 
recollection of and who they are and background. Seriously. 
That was brought up in this committee.
    Mr. Sammon. What you have is under about 850,000 people who 
have criminal history background checks and terrorist watch 
list checks in addition to other checks.
    Mr. Gosar. And it is inadequate. That is because--I can 
point to you that we take a grandmother and strip her down who 
is--because it must be the grimacing that she is going through 
terminal cancer--and that we also have another foreign national 
that gets through with an invalid visa. The problem is that 
there's problems with that aspect because we are not nimble 
enough and we are not working at associating with local and 
regional communities better. And that needs to stop. I'm out of 
time, sir.
    Mr. Chaffetz. Mr. Sammon, if you wanted to----
    Mr. Sammon. No, no. I think--again, this effort--the tool 
which basically allows every airport, in conjunction with the 
Federal Security Director, to do that evaluation of what their 
vulnerabilities are, because they are unique, there isn't one 
standard that applies across the whole country. But you take 
those standards, apply them based upon the vulnerabilities, the 
attack scenarios that are possible at that airport, so on and 
so forth, for each airport to come up with an optimal solution 
so that every dollar that they have that they can apply to 
security, they do it in the optimal way, the best way, the best 
bang for the buck for that particular airport--that tool 
exists. It is done in collaboration with the airports and the 
airport authorities.
    We had over 100 airports apply. Charlotte was not one of 
them. Charlotte is not particularly active in AAAE, which is a 
national organization which has security committees. They are 
not active in ACI, which is a national airport organization 
that has security committees. So of all of the people that 
worked on this, Charlotte's name is not in there. So there are 
people who are working on this.
    As a matter of fact on Monday, I had the CEO of Dallas/Fort 
Worth Airport fly in with his senior staff to sit down with 
John Pistole and our group to tell us that they are very happy 
working with TSA, and what they wanted was to volunteer for any 
pilot security projects that they could have that we would work 
with them on.
    So in terms of how the relationship with airports and 
working with local authorities, it may vary across the country, 
but there are a lot of them who put a lot of work into all of 
these reports to get a tool that will enable them to do the 
best, most optimal security assessments and reports and ways 
forward for each of the airports.
    Mr. Gosar. Well, then it seems to me that you just told me 
that you want a nimble approach. So maybe Charlotte needs a 
little different TLC and maybe that's what you need to look at, 
is that you're giving an individualized plan, so make sure that 
you're elevating that to an individualistic plan as well. You 
know, be careful what you ask for there. Okay?
    Just because somebody is complying--to give you an example, 
you know, as a teacher, a teacher only is asking you to repeat 
what they want you to. It doesn't tell you about the knowledge 
about the student. You have to go a little bit further 
sometimes, and that is the exact case that I'm looking at is 
that sometimes the squeaky wheel is actually the one that is 
doing something a little bit different that I want to know 
about. And I think that behooves you at the top to understand 
what they are doing, why they are doing it, as well as all the 
different other models.
    Mr. Sammon. And that is why what we did is go beyond 
compliance with this report to get the best innovative security 
measures from airports around the country, because compliance 
is not sufficient.
    Mr. Chaffetz. I agree. And we will probably have this 
ongoing discussion, but the idea that you haven't conducted 
joint vulnerability assessments in 83 percent of our Nation's 
airports is not acceptable. It is just not acceptable. We need 
to figure out how to solve that. And I appreciate the follow-up 
with that. As it relates to Dallas, I would hope that Dallas 
would be the first ones in here. They have had 20 perimeter 
security breaches in the last 5 years. They had a truck that 
actually came out across the field, as I noted in my opening 
statement. So there is a lot that needs to be done on security 
with such a big airport such as Dallas, for instance.
    Let me go back to the dogs here. My understanding of the 
dollars and the metrics here,and, again, if we can correct the 
record here as a follow-up, my understanding is it costs 
roughly about $175,000 per whole body imaging machine, but the 
dogs are something like $20,000 to $30,000 to have a fully 
trained dog ready to go. Those aren't the numbers. Let us go 
ahead and correct the record. But I am pretty darn sure those 
are the records.
    But to Mr. Gosar's point, the whole body imaging machines 
have something that the dogs don't have. They have lobbyists. 
And what is infuriating to a person like me is I think the 
challenge is we have to increase the security. We have to 
become more secure. But we can't give up every civil liberty. 
We shouldn't be looking at every passenger naked in order to 
secure the airplane. What we do need are these good dogs 
because the Pentagon, having spent $19 billion, came to the 
conclusion, as I pointed out with the lieutenant colonel's 
comments, the single best way to find a bomb-making device or 
bomb-making materials is the K-9. And we are not putting enough 
emphasis on expanding the use of K-9s. They are friendly. They 
are noninvasive. They are effective. They are the single best 
weapon, according to the Pentagon, in order to fight and find 
these explosive devices.
    Mr. Sammon. Would you like a response?
    Mr. Chaffetz. Sure.
    Mr. Sammon. In terms of the dogs you saw here, the TSA 
supports the Amtrak program. In fact, we probably have 
supported up to about a third of the dog teams that Amtrak has. 
The dog--a fully equipped dog team with training, trainer, dog, 
so on and so forth, is in the hundreds of thousands of dollars 
because you don't--the dog doesn't--it does. You pay for the 
salary of the trainer----
    Mr. Chaffetz. Per year?
    Mr. Sammon. Yes.
    Mr. Chaffetz. You think that is per year? Hundreds of 
thousands of dollars? Hold up.
    Inspector Parker, can you give me a sense of just--what 
does a dog handler make there at Amtrak? What is their annual 
salary? Do you have a guess of generally what they are making?
    Mr. Parker. It depends on their rank. They are probably at 
50- to 70,000.
    Mr. Chaffetz. So how do you come up with hundreds of 
thousands of dollars? I mean, Alpo only costs so much.
    Mr. Sammon. We oversee the Transit Grant Program where we 
provide dog teams to agencies around the country, and it is in 
excess of $100,000. We provide----
    Mr. Chaffetz. You said hundreds of thousands of dollars per 
dog. I challenge you--I challenge you to verify that number.
    Mr. Sammon. We will get you the numbers that we----
    Mr. Farenthold. Will the gentleman yield?
    Mr. Chaffetz. Yes.
    Mr. Farenthold. Will the gentleman yield for just 1 second?
    Mr. Chaffetz. Sure.
    Mr. Farenthold. I assume that your whole body imaging 
machines require an operator, too, that requires a salary as 
well. They don't--it actually in Corpus Christi requires at 
least two, actually three, one to stop you going through, one 
to listen on the radio, and the one in the back that--it 
requires three operators for a whole body machine.
    Mr. Sammon. They all require--they are all expensive 
systems. They each have their role.
    Mr. Chaffetz. You're suggesting that the whole body imaging 
machine is a cheaper alternative than using the K-9s. I tell 
you what, let's do this. I would love to do this. I would love 
to do this. You take 1,000 people and put them in a room, I 
will give you 10 whole body imagining machines. You give me 
5,000 people in another room, you give me one of his dogs, and 
we will find that bomb before you find your bomb.
    That is the problem. There is a better, smarter, safer way 
to do this. And the TSA is not prioritizing it. And if you look 
at who those lobbyists were that pushed through those machines, 
they should be ashamed of themselves, because there is a better 
way to do this and it is with the K-9s. And I'm basing that 
based on what the Pentagon did. That's what the Pentagon did. 
They studied all the technology, all the information; and that 
is what they are doing, they are deploying--you don't see whole 
body imagining machines in Kandahar, but you do see dog teams 
because those guys, their people--their lives are on the line 
every day. That's what we should be doing.
    And you brought it up and I will challenge it. Let us go 
look at, dollar for dollar, what is more expensive, a whole 
body imaging machine, which we know is not effective, and a K-
9. Let's see who can find more bombs and let's see who is less 
expensive. Let's move on.
    Mr. Sammon. And the dog does not work all day. Thank you.
    Mr. Chaffetz. Inspector Parker, how long does the dog work?
    Mr. Sammon. The dogs will work 2 to 3 hours a day, sir. And 
you take a break, and they work 2 to 3 hours more is how you 
condition the dog to work.
    Mr. Chaffetz. Let us keep going because I really do believe 
that the dogs are a better, smarter solution.
    One of the challenges that the TSA is having to deal with 
is the fact that we have over 900,000 security badges out 
there. My understanding as I was told, there are roughly 16,000 
just at Dulles Airport alone. What sort of background checks 
are they going through? How often are those rechecked? And how 
are you going to deal with the fact that we have closing in on 
a million people with security badges all across the airports?
    Mr. Sammon. There are probably 850,000 badges out there 
that are active. They go through a criminal history background 
check.
    Mr. Chaffetz. Who does that check?
    Mr. Sammon. The--that check is--it goes through the airport 
authorities, AAAE to the FBI. Then they do a watch-list check, 
which goes through AAAEs, right. Currently the channeling 
mechanism goes through TSA. We run a watch-list check on them. 
They are perpetually vetted from the watch-list basis.
    In addition, there are other immigration checks on those 
people versus when they originally apply. They are redone every 
2 years. And at that time, the security awareness training is 
required at the time of the badge reissuance.
    Mr. Chaffetz. Do you have a plan to deal with the 
vulnerabilities of an insider attack?
    Mr. Sammon. There are a number of things in terms of 
insider attacks, in terms of the security awareness training.
    Mr. Chaffetz. No, but I'm saying is there an actual plan?
    Mr. Sammon. In terms of--what particular kind of attack?
    Mr. Chaffetz. An insider attack.
    Mr. Sammon. Well, there are many--it can take many forms. 
What kind are you thinking of?
    Mr. Chaffetz. I just wonder if there is a plan to deal with 
the fact that you have 900,000 people who are----
    Mr. Sammon. Yes.
    Mr. Chaffetz. You do. Mr. Lord, what is your understanding 
of that situation?
    Mr. Lord. Our commentary was related to the combined risk 
assessments, something called TSARA, the latest edition 
released last year. A notable caveat was it excluded the threat 
of the insider attack in various forms and TSA acknowledged it 
needed to look at that. And the next iteration due later this 
year will include that threat.
    Mr. Chaffetz. But Mr. Sammon just said he already has it.
    Mr. Lord. Well, I'm not sure he meant it in terms of this 
one analysis I'm referring to. They may look at it in other 
forms or----
    Mr. Chaffetz. Is Mr. Lord wrong?
    Mr. Sammon. No. Two different things. Your question, as I 
took it, is what goes on daily in an airport environment. The 
TSARA is a--the first of its kind across all modes risk 
comparison, based upon 500--in excess of 550 attack scenarios. 
Insider attack was not part of the first one. It will be 
included in the second version.
    Mr. Chaffetz. I look forward to seeing that. The 25,000 
perimeter breaches, I would appreciate--is this--it is very 
difficult to get any sort of analysis of this over such a long 
period of time. Is there a month-by-month analysis that you can 
share with us?
    Mr. Sammon. I don't have it with me. That is 2,500 a year. 
It could be anything from a bag left behind, a door left open--
--
    Mr. Chaffetz. That's where we are hoping that the TSA can 
provide us--introduce some details and understanding where the 
trend is going. Is this an upward trend, downward trend? That 
sort of thing. Is that something that you will provide the 
committee?
    Mr. Sammon. I will go back and we will check into that, 
yes, sir.
    Mr. Chaffetz. Yes, you will provide that to the committee?
    Mr. Sammon. In terms of--if it is security-sensitive 
material, we will talk to the committee about that, yes.
    Mr. Chaffetz. All right.
    Let me keep going. The perimeter fence at the JFK Airport, 
based on an investigative report done by a news organization, 
my understanding is that the project to fix the perimeter fence 
is running 4 years behind schedule. What is your knowledge of 
that situation?
    Mr. Sammon. I'm not personally aware of that. I do know 
that JFK and the New York Port Authority Airports are looking 
at deploying state-of-the-art intrusion detection technology in 
addition to fencing because of the kinds of things that people 
have talked about. The fence can be cut. You want to have a 
technology tied into camera systems that will alert cameras and 
patrols if there is an intrusion.
    We deploy extensively in the subway tunnels, intrusion 
detection in key tunnels, and particularly underwater tunnels.
    Mr. Chaffetz. I know. We are getting off topic here. I'm 
worried about the quarter mile of fence at JFK and it being 4 
years behind schedule.
    Mr. Sammon. I don't know right now, today, what the status 
is, but we'll get back to you.
    Mr. Chaffetz. Please describe for the committee your role 
and responsibility. What is your responsibility?
    Mr. Sammon. My responsibility is working with the various 
stakeholders, the various people in pipelines, in mass transit, 
in railroads, in highways, in air freight carriers generally--
--
    Mr. Chaffetz. So it is not exclusive to just airports?
    Mr. Sammon. No, sir.
    Mr. Chaffetz. And would you say that JFK is one of the 
most--I mean, it has to be one of the largest targets out 
there.
    Mr. Sammon. JFK is.
    Mr. Chaffetz. The committee would appreciate more 
understanding from their perspective of why this project is 4 
years behind schedule. I understand there is a local component. 
But from the TSA side, that would be much appreciated.
    At Los Angeles International Airport, LAX, an airport 
official noted that although the current 8-mile perimeter fence 
complies with Federal regulations, that it has been built in 
stages of the past decade, it has no one consistent security 
standard. Is there a consistent security standard for 
perimeters?
    Mr. Sammon. The standard varies based upon the location of 
the facility----
    Mr. Chaffetz. But it is not going to vary in an airport, 
right? It may vary between LAX and Bozeman, Montana.
    Mr. Sammon. It may vary based upon where the location of 
the airport is, what the surrounding geography is.
    Mr. Chaffetz. Are there standards for all those various 
components?
    Mr. Sammon. Those standards are again--what we have done--
the work I showed the committee earlier today in terms of 
developing what those--for each airport based upon their 
vulnerabilities. But they do vary with an airport. Some parts 
are----
    Mr. Chaffetz. Mr. Lord, what is your understanding of this 
situation?
    Mr. Lord. I will have to defer to Mr. Sammon on that, 
whether just standards vary within the actual airport. I don't 
have the expertise----
    Mr. Chaffetz. In 2009, the Government Accountability Office 
issued a report stating that TSA lacks, ``a unified national 
strategy.'' Where is that today?
    Mr. Lord. Well, first of all, that is a great question. At 
the time we did the work, we were concerned about the variety 
of players involved--multiple layered ports, multiple industry 
stakeholders--TSA had more of an indirect oversight role. And 
we thought it was important to come up with an overall game 
plan to unify the current efforts. And it is our understanding 
that draft strategies currently have been included as a model 
annex to a document called the TSIP, but that is currently 
under agency review. So they are close to releasing it. We have 
not seen it yet.
    Mr. Chaffetz. One more question and then I will recognize 
Mr. Farenthold.
    The software updates. As Inspector Parker pointed out, the 
hardware needs software, and that software needs updating. Some 
of this software is as old as 1998, is my understanding based 
on what I have read. Is that your understanding? And what is 
the agency doing to update the software?
    Mr. Sammon. So as I understand the--all new equipment being 
purchased is being purchased at the 2010 standard, the 1998 
standards are more stringent than anything in the world, and 
that there is a plan to update, incrementally, machines that 
are out there, in phases to the 2010 standard. That is my 
understanding.
    Mr. Chaffetz. Mr. Lord, do you care to comment on that?
    Mr. Lord. I agree with that characterization.
    Mr. Chaffetz. So are you prioritizing the 1998 machines? Is 
there a----
    Mr. Sammon. I will have to get back to you with the 
specific plan to update those machines. I don't have that with 
me.
    Mr. Chaffetz. All right. Let me go to Mr. Farenthold to be 
recognized.
    Mr. Farenthold. Thank you very much, Mr. Chairman. I 
appreciate the opportunity for a second round of questioning.
    Again, I want to start with the actual topic that--we have 
kind of gone into a whole lot of areas here. Perimeter 
security. Once you are within the perimeter of the airport, 
there is a real potential of you being able to do some damage. 
What is being done to address much more ease of access to the 
tarmac area from those involved in general aviation as opposed 
to those in commercial aviation? For instance, I drive into the 
general aviation area to board my friend's private plane, and 
then I wander over and sneak something on a plane, a commercial 
plane.
    Mr. Sammon. The first thing we have done, about 2 years 
ago, required extending the badging requirements to people in 
general aviation. That caused quite a fuss. There was a lot of 
pushback on that.
    Mr. Farenthold. But now there's no photo IDs for a pilot to 
access his or her plane----
    Mr. Sammon. If he is regularly on that airport, he has to 
have a badge, yes, sir. If--based upon where it is. But if he 
has proximity to the tarmac, the commercial airport--and this 
caused quite a bit of ruckus I think back in 2008, when we 
extended the badging requirements for larger populations within 
the airport----
    Mr. Farenthold. But I don't need a badge to get onto the 
tarmac in a general aviation area. I don't need anything.
    Mr. Sammon. You either have to be accompanied to your 
aircraft back and forth or in and out of that facility. But 
if--you can be challenged, just as anyone else on the facility 
if you are there.
    Mr. Farenthold. All right. It seems like--again, I am just 
speaking from what appears to me to be common sense, that there 
really ought to be a focus on the ground staff that doesn't go 
up in the airplanes. The 9/11 box cutters were potentially put 
on the plane by ground crew. The ground crew doesn't go up with 
the plane, so their life isn't at risk in an attack. It seems 
like there ought to be a strong focus there.
    Mr. Sammon. That is why they are all badged, and they have 
security awareness training. That is why there is covert 
testing of those--and random screening of people on the tarmac, 
yes, sir.
    Mr. Farenthold. All right. And let us talk a little bit 
about the behavioral detection. You know, before I was elected 
to Congress, I actually had time to watch TV and watch Lie to 
Me. Is this really a science that works, or is it a 
pseudoscience? You mentioned that we were able to apprehend 
hundreds of criminals. Have we seen any positive results of 
that in apprehending anybody with contraband at the airport?
    Mr. Sammon. We did. I believe it was in Orlando several 
years ago, a person had actually explosive material in his 
bags. He attempted to get them onto the belt. He was detected 
as he came through the door by his behavior. He had not been 
screened. His bags had not been screened. He was pulled over 
and found that he had--was attempting----
    Mr. Farenthold. So we have gotten one. Mr. Lord, did you 
want to comment?
    Mr. Lord. You know, I would like to respectfully disagree 
with Mr. Sammon on that. I'm not sure he was detected through 
the BDO program. He had such an unusual appearance, I think he 
alarmed the passengers waiting in line, and a ticket agent may 
have alerted locals. I'm not sure that was truly a BDO behavior 
detection success.
    Also, as I recall from reading his case file, he is an 
Iraqi war veteran suffering from post-traumatic stress disorder 
and wasn't on his medication.
    Mr. Farenthold. Mr. Ron, would you like to comment on that? 
I know the Israelis were pioneers in this.
    Mr. Ron. Yes. The Israeli--the principle of behavior is 
part of a wider principle of identifying level of risk of the 
individual passengers, and it is also based on looking at other 
sources of information rather than just observation. So you 
have to look at it in that context.
    But I still have to say that the BDO program, despite the 
fact that it has been noted that they--both by GAO and the 
Academy of Science, that there is no scientific support. But I 
need to say that there has not been serious research into this. 
So that by itself doesn't prove that it doesn't stand.
    In empiric terms, I think that at least those airports here 
in the United States that we have worked with on this issue, 
mostly with local police officers, there has been a reasonable 
level of success in detecting people with malicious intentions.
    Mr. Farenthold. Let me just ask you one more question, Mr. 
Ron. If for some reason I were to become President tomorrow, 
and I appointed you the head of the TSA, what are the top five 
changes you would make to improve security and improve the 
efficiency of the system? Can you list maybe five off the top 
of your head?
    Mr. Ron. Well, I will start with two. The first one is a--I 
would redirect the strategy toward a risk-based--real risk-
based strategy that identifies the level of risk of the 
individual passenger by the access to information that we have 
starting with, prior to his arrival, his or her arrival at the 
airport. And later on the--with the ability to talk to those 
very few passengers that we find as high-risk passengers based 
on our earlier analysis and not just search them, but also talk 
to them and interview them to a level that would provide us 
with more information.
    Mr. Farenthold. It is really interesting. I did this just 
kind of as a thought experiment and I will just give you--I 
walked--I went from Corpus Christi to Washington, DC, without 
saying anything other than thank you to a person at the 
airport. That was it. No interaction beyond saying thank you to 
people who helped me.
    Mr. Ron. This is a critical point because I think that the 
lack of contact between the security--between the security 
people and the passengers is one of our greatest shortcomings, 
because we just focus on items, and that is doomed to failure 
because the technology that we have at this point is not good 
enough to provide us with a reasonable level of detection.
    Mr. Chaffetz. I now recognize Mr. Tierney.
    Mr. Tierney. Thank you. Mr. Sammon, I just wanted to give 
you an opportunity to make some comments with respect to that.
    Mr. Sammon. Again, I don't disagree with what Mr. Ron is 
saying. The first thing in terms of what--the fundamental part 
is access to information; and that is the more information you 
have, the more you know about people and you can say--because 
most of the people going to the airport on any given day are 
all trusted. I mean, there is not--there is not a--they are 
fine. They just want to get on their way.
    The challenge is to have information that differentiates 
people, one group of people or individuals from the larger 
group, and getting that, as he said, that information prior to 
their arrival at the airport. Right now we know, we know their 
name, we know their date of birth, and we know kind of where 
they are coming from and where they are going through. We 
can't, even through secure flight, track where they have been 
for the past 3 years. So it is--right now we are in the 
situation of looking at how do we do better risk-based 
security, but also what kind of information can you have access 
to to do a better job? And that is one of the challenges.
    Mr. Chaffetz. Thank you. Just some very quick things. The 
committee would appreciate the opportunity, particularly with 
Mr. Sammon here, to ask some additional questions. Would it be 
all right that we submit those. I would ask all Members of the 
panel--some of them weren't able to be here today--to submit 
those within the next 7 days.
    We would also appreciate the TSA providing us a copy of 
each of the incident reports. I know it is a massive amount of 
paper, but we would like to pour through those. And we would 
appreciate it if you would provide those to us.
    We would also like to have a briefing on this risk-based 
approach. It is something that you had offered earlier. I 
recognize that it probably needs to be in a secure setting, but 
it is something we would like to schedule and work out with the 
TSA, moving forward.
    I would also appreciate some definitions, if you will, and 
some specific statistics on the number of stowaways. It is 
something that we have asked for. It is something that TSA has 
not yet provided to us but this committee would appreciate 
those.
    Of those things that I asked, is there any reason to think 
that those things can't happen?
    Mr. Sammon. I will go back and check and make sure that 
they--the status of those requests and where they are.
    Mr. Chaffetz. Thank you. And a couple of those are new. But 
the stowaways was a previous request.
    The last question here about transportation security 
inspectors [TSIs], as it's referred to in a lot of the 
documents. How many of them are there? And I know that they can 
impose civil penalties. So how many civil penalties have we 
imposed over the years? I don't know what timeframe to ask, 
but----
    Mr. Sammon. I think that would be a good request in terms 
of what we have. I don't have data with me today, so it would 
merely be conjecture on my part. But we could give you the 
total number of inspectors that are out there and the number of 
penalties, the number of open cases. Also we do it in terms of 
findings. In some cases the airport, on the spot, resolves the 
issue. In other cases they do go to civil violations and civil 
fines and that kind of thing. But I think it would be good to 
get you a good breakout on that that is concise and accurate.
    Mr. Chaffetz. We would appreciate that.
    As we conclude here, I would like to give you just each a 
moment. Please, brief. But we'll start with you, Mr. Sammon, 
and kind of go down the line.
    What is the kind of number one thing you would like to see 
happen, whether it is your biggest concern or what specifically 
you would like to see happen? And then we will close the 
hearing.
    Mr. Sammon. Again, with the committee and all committees in 
Congress, is to support and work with Administrator Pistole as 
he goes forward with the risk-based security. He is definitely 
focused in that direction. And it is going to take--there are 
going to be challenges as we referred to in terms of 
information: How do we go forward? But he definitely is going 
in this direction. And I would say to give him the benefit of 
the doubt and work with him in terms of where he is trying to 
go.
    Mr. Lord. I would just like to say on behalf of GAO, we 
stand ready to support the committee's efforts to oversee TSA's 
effort to move to more of risk-based approach. I agree with Mr. 
Ron; we need to spend more time worrying about dangerous people 
versus dangerous objects and there's various ways to do it. And 
we need to do it in a way that makes sense.
    Mr. Orr. I would like to note that both of our joint 
vulnerability assessments noted no compliance issues. We were 
in full compliance with all of the regulations. What I would 
like to see is a collaborative partnership between us and the 
TSA to address the real issues.
    Mr. Chaffetz. Thank you. Mr. Ron.
    Mr. Ron. Beyond the need for a better risk-based approach 
to passenger and bag screening, I would strongly recommend to 
create a better balance between the airport facility security 
and the passenger and bag screening operation, because right 
now we are spending most of our efforts on the front door when 
the back door is not secure at all.
    Mr. Chaffetz. Thank you. Inspector Parker.
    Mr. Parker. Yes, sir. Thank you.
    I would like to see continued support for the K-9 programs 
because, as I stated before, that Amtrak is doing a lot and we 
definitely appreciate what Congress has done for us to fund us.
    Mr. Chaffetz. Thank you. Thank you all for being here. I 
appreciate it. It takes a lot of time and effort in preparation 
of your testimony and for you being here today. We do 
appreciate it. And thank you and I wish you the best.
    Our mutual goal on both sides of the aisle is to make this 
country as safe and secure as possible, but at the same time we 
need to make sure that we are filling those gaps and asking the 
hard questions. That is what makes this country great, is our 
ability and opportunity to do that.
    So, again, I appreciate you all being here. The committee 
stands adjourned.
    [Whereupon, at 11:16 a.m., the subcommittee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
